U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 14, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Kenneth E. Flick v. Jeffrey A. Rosen, Acting Attorney General,
S.Ct. No. 20-902

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
29, 2020, and placed on the docket on January 5, 2021. The government’s response is due on
February 4, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 8, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0902
FLICK, KENNETH E.
JEFFREY A. ROSEN, ACTING ATTORNEY
GENERAL

ALAN GURA
GURA PLLC
916 PRINCE STREET
SUITE 107
ALEXANDRIA, VA 22314
703-835-9085
ALAN@GURAPLLC.COM

